Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   PART B PAYMENTS FOR DRUGS
    INFUSED THROUGH DURABLE
       MEDICAL EQUIPMENT




                    Daniel R. Levinson
                     Inspector General

                      February 2013
                     OEI-12-12-00310
EXECUTIVE SUMMARY: PART B PAYMENTS FOR DRUGS INFUSED
THROUGH DURABLE MEDICAL EQUIPMENT
OEI-12-12-00310


WHY WE DID THIS STUDY

Medicare pays 106 percent of the average sales price (ASP) for most drugs covered under
Part B. However, payment amounts for infusion drugs administered in conjunction with
durable medical equipment (DME) are instead set at 95 percent of the drugs’ average
wholesale prices (AWP) that were in effect on October 1, 2003. Numerous Office of
Inspector General reports have shown that AWPs greatly exceed drug acquisition costs.
Basing payments for DME infusion drugs on AWPs set almost a decade ago raises
concerns about whether Medicare payment levels are appropriate.

HOW WE DID THIS STUDY

For every year between 2005 and 2011, we compared the ASP (which serves as an
estimate for provider acquisition cost) of each DME infusion drug to its AWP-based
Medicare payment amount. ASPs are statutorily defined and based on actual sales data.
We also calculated how much Medicare would have saved between 2005 and 2011 had
payment been based on ASPs rather than AWPs.

WHAT WE FOUND

Overall, Medicare payment amounts for DME infusion drugs exceeded ASPs by 54 to
122 percent annually. Most individual drugs had Medicare payment amounts that
exceeded ASPs, many by more than two times, in each year. However, for as many as
one-third of DME infusion drugs in each year, the payment amounts were below their
ASPs, meaning that Medicare may be underpaying providers for these drugs. Medicare
spending on DME infusion drugs would have been reduced by 44 percent ($334 million)
between 2005 and 2011 had payment been based on ASPs.

WHAT WE RECOMMEND

Our results once again show that AWPs are unrelated to actual prices in the marketplace
and that the reliance on an AWP-based payment methodology has cost Medicare
hundreds of millions of dollars. Therefore, we recommend that the Centers for Medicare
& Medicaid Services (CMS) either (1) seek a legislative change requiring DME infusion
drugs to be paid using the ASP methodology or (2) include DME infusion drugs in the
next round of the competitive bidding program. CMS partially concurred with the
recommendation to seek a legislative change and concurred with the recommendation to
include DME infusion drugs in the next round of the competitive bidding program.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................7
           Overall, Medicare payment amounts for DME infusion drugs
           exceeded ASPs by 54 to 122 percent annually from 2005 to
           2011 ..................................................................................................7
           Medicare and its beneficiaries would have saved $334 million
           between 2005 and 2011 if payments for DME infusion drugs had
           been based on ASPs .........................................................................9
Conclusion and Recommendations ............................................................ 11
           Agency Comments .........................................................................12
Appendixes ................................................................................................13
          A. Durable Medical Equipment Infusion Drug Descriptions ........13
          B. Annual Savings Under Average Sales Price Methodology ......15
          C. Agency Comments ...................................................................16
Acknowledgments......................................................................................18
                  OBJECTIVES
                  1. To compare Medicare payment amounts based on average wholesale
                     prices (AWP) to average sales prices (ASP) for Part B durable medical
                     equipment (DME) infusion drugs between 2005 and 2011.
                  2. To determine how much Medicare would have saved on DME infusion
                     drugs between 2005 and 2011 had payment been based on the ASP
                     methodology.

                  BACKGROUND
                  Infusion drugs administered in conjunction with DME are one of the few
                  types of drugs that are paid by Medicare Part B using AWPs instead of
                  ASPs. Numerous Office of Inspector General (OIG) reports have found
                  that AWPs often greatly exceed the drugs’ actual costs. Partly on the basis
                  of this work, the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA) replaced AWP with ASP—a
                  benchmark that reflects actual prices in the marketplace—as the pricing
                  method for most Part B drugs beginning on January 1, 2005. 1 However,
                  the MMA excluded infusion drugs used with DME from the new ASP
                  methodology and set their payment amount at 95 percent of the AWPs that
                  were in effect on October 1, 2003. 2
                  Medicare Part B Coverage of Infusion Pumps
                  In infusion therapy, drugs are typically administered intravenously using a
                  needle, catheter, or device such as an infusion pump to control the rate of
                  drug flow. 3 Physicians often prescribe infusion therapy when oral
                  medications may not effectively treat the patient’s condition. 4 Infusion
                  therapy is commonly used to treat acute conditions, such as pain and
                  infections, and chronic conditions, such as cancer, multiple sclerosis, and
                  rheumatoid arthritis. 5 Infusion therapy is often provided in the home
                  rather than in inpatient settings to reduce costs associated with inpatient
                  care and maintain patient convenience and comfort. 6
                  In general, external and implantable pumps used in infusion therapy are
                  covered by Medicare under the DME benefit when they are used as

                  1
                    MMA, P.L. 108-173, § 303(c) (adding section 1847A of the Social Security Act (the
                  Act)).
                  2
                    MMA, P.L. 108-173, § 303(b) (amending section 1842(o)(1) to set a different payment
                  methodology for infusion drugs administered through DME at 1842(o)(1)(D)(i)).
                  3
                    National Home Infusion Association (NHIA), Infusion FAQs. Accessed at
                  http://www.nhia.org on July 18, 2012.
                  4
                    NHIA, About Infusion Therapy. Accessed at http://www.nhia.org on July 18, 2012.
                  5
                    NHIA, Infusion FAQs. Accessed at http://www.nhia.org on July 18, 2012.
                  6
                    Ibid.

                                                                                                          1
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  specified by the Medicare National Coverage Determinations Manual.
                  For example, Medicare covers external infusion pumps when used to treat
                  iron poisoning, thromboembolic disease, and diabetes, among other
                  conditions. Implantable infusion pumps are covered when they are used to
                  treat certain conditions, including chronic intractable pain, chronic
                  intractable spasticity, and liver cancer. 7
                  Medicare Part B Coverage of DME Infusion Drugs
                  Part B-covered drugs generally fall into the following categories: drugs
                  furnished incident to a physician’s service (e.g., injectable drugs used in
                  connection with the treatment of cancer); drugs explicitly covered by
                  statute (e.g., some vaccines and oral anticancer drugs); and drugs used in
                  conjunction with DME (e.g., certain inhalation and infusion drugs). 8, 9
                  Medicare Part B covers drugs used in infusion therapy under its DME
                  benefit if (1) the drug is necessary for the effective use of a covered
                  external or implantable infusion pump and (2) the drug being used with
                  the pump is itself reasonable and necessary for the patient’s treatment. 10
                  From 2005 to 2011, the Centers for Medicare & Medicaid Services (CMS)
                  classified 31 to 38 drugs as “DME infusion” in any given quarter. 11
                  Medicare Part B Payments for DME Infusion Drugs
                  CMS pays physicians and DME suppliers for most Part B-covered drugs
                  using a methodology based on ASPs. Section 1847A(c) of the Act defines
                  ASP as a manufacturer’s sales of a drug (with certain exceptions) to all
                  purchasers in the United States in a calendar quarter divided by the total
                  number of units of the drug sold by the manufacturer in that same quarter.
                  The ASP is net of any price concessions, such as volume discounts,
                  “prompt pay” discounts, cash discounts, free goods contingent on
                  purchase requirements, chargebacks, and rebates other than those obtained
                  through the Medicaid drug rebate program. As such, it can be considered
                  a proxy for providers’ acquisition costs. Manufacturers provide CMS with
                  the ASPs and volume of sales for each of their drug products on a
                  quarterly basis, with submissions due 30 days after the close of each
                  quarter. Medicare payments for most Part B-covered prescription drugs
                  are equal to 106 percent of the volume-weighted ASPs for the HCPCS

                  7
                    Medicare National Coverage Determinations Manual, ch. 1 § 280.14.
                  8
                    Infusion drugs used in conjunction with DME will hereinafter be referred to as “DME
                  infusion drugs.”
                  9
                    42 CFR § 414.900(b) and Medicare Benefit Policy Manual, ch. 15 § 50.
                  10
                     Medicare National Coverage Determinations Manual, ch. 1 § 280.14.
                  11
                     DME infusion drugs are classified and paid using Healthcare Common Procedure
                  Coding System (HCPCS) codes. In the case of prescription drugs, each HCPCS code
                  defines the drug name and the amount of drug represented by the HCPCS code but does
                  not specify manufacturer or package size information.

                                                                                                          2
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  code (or the actual billed charge, if that amount is lower). Medicare
                  beneficiaries are responsible for 20 percent of this amount in coinsurance,
                  as well as for any deductible.
                  Unlike most drugs covered under Part B, DME infusion drugs are not paid
                  on the basis of ASPs. Rather, section 1842(o)(1)(D)(i) of the Act, as
                  amended by the MMA, sets payment amounts for these drugs at
                  95 percent of the AWPs that were in effect on October 1, 2003. 12 Statutes
                  and regulations do not define AWP, and AWPs do not represent actual
                  transactional prices. Rather, AWPs are the list prices established by drug
                  manufacturers and reported by publishers such as Red Book.
                  For a single-source DME infusion drug, the Part B payment amount for a
                  HCPCS code is based on 95 percent of the drug’s AWP on
                  October 1, 2003. 13 For a multiple-source DME infusion drug, payment is
                  based on 95 percent of the median AWP on October 1, 2003, for generic
                  sources. However, if the lowest AWP among brand-name products is less
                  than the generic sources’ median AWP, Medicare pays 95 percent of this
                  brand-name product’s AWP. Each quarter, CMS publishes on its Web site
                  the AWP-based payment amounts for DME infusion drugs. 14 Medicare
                  beneficiaries are responsible for 20 percent of the payment amount in
                  coinsurance, as well as for any deductible.
                  In 2011, Medicare and its beneficiaries spent approximately $125 million
                  for 21 DME infusion drugs. (The other 10 drugs classified as “DME
                  infusion” were not associated with any Part B expenditures.) However,
                  just 3 of the 21 drugs accounted for 91 percent of expenditures, with a
                  single drug (milrinone lactate) accounting for 62 percent of the total. 15, 16
                  Competitive Bidding for DME Infusion Drugs
                  The DME, Prosthetics, Orthotics, and Supplies (DMEPOS) Competitive
                  Bidding Program was mandated by section 302 of the MMA to reduce

                  12
                     According to section 20.1.3 of chapter 17 of the Medicare Claims Processing Manual,
                  this payment methodology does not apply if the drug is compounded or furnished
                  incident to a professional service. Also, pursuant to section 1842(o)(1)(D)(ii) of the Act,
                  payments for DME infusion drugs are not based on 95 percent of AWP if furnished in
                  competitive bidding areas. However, CMS is implementing the competitive bidding
                  program by phasing in specific items. Medicare Claims Processing Manual, ch. 36
                  § 20.1. At this time, DME infusion drugs have not been designated for inclusion in the
                  competitive bidding program.
                  13
                     Medicare Claims Processing Manual, ch. 17 § 20.4.
                  14
                     Although the payment amounts remain constant, the HCPCS codes classified as DME
                  infusion and thus subject to AWP-based payment may change from quarter to quarter.
                  15
                     2011 National Claims History (NCH) DME file. Claims data are added to NCH files
                  on a rolling basis. Therefore, the 2011 NCH DME file did not include 100 percent of
                  claims for DME infusion drugs when OIG analyzed it in April 2012.
                  16
                     Milrinone lactate (brand name Primacor) is used to treat congestive heart failure.

                                                                                                            3
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  expenses for Medicare and its beneficiaries. 17 DME suppliers submit bids
                  to become Medicare contract suppliers and to furnish items in competitive
                  bidding areas. Payment amounts resulting from the bids replace current
                  fee-schedule payment amounts for the items. 18 The competitive bidding
                  program has been implemented in phases beginning with bids for items
                  with the highest cost and highest volume or with the largest savings
                  potential. 19 On January 1, 2011, CMS launched the initial phase in nine
                  geographic areas for nine product categories. 20 Pursuant to the Patient
                  Protection and Affordable Care Act, all areas will have competitive
                  bidding or payment rate adjustments based on competitive bid rates by
                  2016. 21 At this time, DME infusion drugs have not been included as part
                  of the competitive bidding process. According to CMS staff, the agency
                  intends to include DME infusion drugs in a future phase of the program;
                  however, no definitive plans for their inclusion have been announced.
                  Previous OIG Work
                  Since 1997, OIG has released numerous reports showing that AWPs
                  greatly exceed acquisition costs. For example, a 2001 OIG report found
                  that Part B payment amounts, which were set at 95 percent of AWP,
                  exceeded actual wholesale prices (obtained from wholesaler catalogs) for
                  24 drugs with the highest total Medicare payments. 22 If Medicare had
                  reimbursed these drugs at the actual wholesale prices, it would have saved
                  $761 million a year. Another OIG report found that Medicare payments
                  for end stage renal disease drugs, which were set at 95 percent of AWP,
                  exceeded amounts paid by the Department of Veterans Affairs (VA) in
                  1999. 23 Medicare Part B payment amounts would have been nearly halved
                  for five drugs had payment amounts been based on VA acquisition costs.
                  Both of these studies recommended that CMS reduce excessive Medicare
                  payment amounts.




                  17
                     Medicare Claims Processing Manual, ch. 36 § 10.
                  18
                     Ibid.
                  19
                     Medicare Claims Processing Manual, ch. 36 § 20.1.
                  20
                     CMS, DMEPOS Competitive Bidding. Accessed at https://www.cms.gov on July 12,
                  2012.
                  21
                     The Patient Protection and Affordable Care Act, P.L. 111-148 § 6410.
                  22
                     OIG, Medicare Reimbursement of Prescription Drugs, OEI-03-00-00310,
                  January 2001.
                  23
                     OIG, Medicare Reimbursement of End Stage Renal Disease Drugs, OEI-03-00-00020,
                  June 2000.

                                                                                                    4
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  METHODOLOGY
                  Data Collection
                  Selection of Drugs. We used CMS’s payment amount files to select the
                  HCPCS codes that were paid on the basis of DME infusion payment limits
                  (i.e., 95 percent of AWPs from October 1, 2003) in each quarter between
                  2005 and 2011. As previously stated, during that time, 31 to 38 HCPCS
                  codes were classified as “DME infusion drugs” in any given quarter. See
                  Appendix A for a list of these drugs.
                  Total Part B Expenditures and Utilization for DME Infusion Drugs. We
                  obtained all paid Part B DME claims for infusion drug HCPCS codes from
                  the 2005–2011 NCH DME files to determine quarterly utilization and
                  spending. If a HCPCS code did not have any associated expenditures in a
                  particular quarter, we removed the code from the analysis for that quarter
                  (i.e., our analysis includes only codes for which there were Part B
                  expenditures). As a result, between 7 and 13 HCPCS codes were removed
                  from our analysis in any given quarter.
                  AWP-Based Payment Amounts. We obtained the AWP-based payment
                  amounts for all relevant HCPCS codes in every quarter between 2005 and
                  2011 from CMS’s payment amount files.
                  ASPs and ASP-Based Payment Amounts. CMS also calculates ASP-based
                  payment amounts for the HCPCS codes under review for situations when
                  the drugs are provided incident to a professional service (e.g., the identical
                  drug is paid on the basis of its ASP rather than AWP when it is
                  administered in a physician’s office rather than infused in a patient’s
                  home). 24 We obtained the ASP-based payment amounts for all relevant
                  HCPCS codes in every quarter under review from CMS’s payment amount
                  files. We used the ASP-based payment amounts to calculate ASPs by
                  dividing each HCPCS code’s ASP-based payment amount by 1.06. 25 As
                  previously stated, because ASPs are based on actual sales in the
                  marketplace, they provide a reasonable estimate of the acquisition costs of
                  these drugs for providers.




                  24
                    Medicare Claims Processing Manual, ch. 17 § 20.1.3.
                  25
                    There is a two-quarter lag between the time when ASP sales occur and when Medicare
                  payment amounts reflect those sales. As a result, ASPs in a given quarter were calculated
                  using ASP-based payment amounts from two quarters later (e.g., fourth-quarter 2011
                  ASPs were calculated by dividing second-quarter 2012 payment amounts by 1.06). We
                  removed between zero and four HCPCS codes from our comparisons in any given quarter
                  because there were no ASP-based payment data in the relevant quarter on which to base
                  our calculations.

                                                                                                         5
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  Data Analysis
                  Comparing ASPs and Medicare Payment Amounts Between 2005 and
                  2011. We first estimated an annual ASP for each HCPCS code by
                  weighting the ASP in each quarter by Part B utilization in that quarter. We
                  then calculated the difference between the AWP-based payment amount
                  and the annual ASP for each HCPCS code. For every year from 2005
                  through 2011, we counted the number of DME infusion drug HCPCS
                  codes that had Medicare payment amounts that exceeded their annual
                  ASPs and the number of codes with Medicare payment amounts that were
                  less than their annual ASPs. We examined whether the number of HCPCS
                  codes with Medicare payments amounts above and below their annual
                  ASPs changed during this period.
                  To determine an overall difference between Medicare payment amounts
                  and ASPs across all DME infusion drugs in each year, we calculated a
                  median difference among all the individual HCPCS codes. We tracked
                  these median differences over the entire 2005–2011 period to determine
                  whether the relationship between ASPs and Medicare payment amounts
                  changed across the entire group of DME infusion drugs during this time.
                  Determination of Potential Savings. For each HCPCS code, we multiplied
                  its utilization by its ASP-based payment amount for every quarter between
                  2005 and 2011 to determine how much would have been spent if payments
                  for DME infusion drugs had been set at 106 percent of ASP (i.e., the
                  methodology used to pay for most Part B drugs). We then subtracted the
                  result from actual expenditures in the relevant quarter to determine the
                  difference in spending between the AWP-based and ASP-based payment
                  methodologies. We added the quarterly results to determine the total
                  savings in each year from 2005 to 2011.
                  Limitations
                  We did not review Part B claims for accuracy, nor did we review any
                  documentation in support of the claims included in our study. We also did
                  not examine any infusion-related services (either covered or uncovered)
                  that may have been provided to beneficiaries who received DME infusion
                  drugs.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                                                                                            6
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  FINDINGS
                  Overall, Medicare payment amounts for DME infusion
                  drugs exceeded ASPs by 54 to 122 percent annually
                  from 2005 to 2011
                  Given that ASPs should reflect providers’ acquisition costs, our analysis
                  suggests that Medicare overpaid for DME infusion drugs by a substantial
                  margin in each year from 2005 to 2011. Although overall differences were
                  smallest in 2006, Medicare payment amounts that year still exceeded
                  ASPs by 54 percent at the median (see Figure 1). In contrast, the largest
                  spread was in 2009, when payment amounts were more than double the
                  ASPs at the median.
                  Figure 1: Median Difference Between ASPs and Medicare Payment
                  Amounts From 2005–2011 for All DME Infusion Drugs

                                                                    140%
                      Median Difference Between ASPs and Medicare




                                                                    120%

                                                                    100%
                                    Payment Amounts




                                                                    80%

                                                                    60%

                                                                    40%

                                                                    20%

                                                                     0%
                                                                           2005   2006   2007   2008   2009   2010   2011
                                                                                                Year

                   Source: OIG analysis of CMS’s 2005–2011 payment amount files.

                  From 2005 to 2011, the majority of drugs had Medicare
                  payment amounts that exceeded ASPs; however, as many as
                  one-third of drugs had payment amounts that were less than
                  ASPs each year, meaning that providers were potentially being
                  underpaid for some products
                  In each year under review, 67 to 86 percent of DME infusion drug HCPCS
                  codes had Medicare payment amounts that exceeded their ASPs (see
                  Table 1). In many of these cases (between 46 and 52 percent each year),

                                                                                                                            7
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  Medicare paid providers at rates that were more than double the ASPs of
                  the drugs. For example, in 2011, 10 of the 21 HCPCS codes for DME
                  infusion drugs had AWP-based payment amounts that were at least twice
                  the ASPs, with 4 of these being paid at more than 10 times the market
                  prices.
                  In contrast, from 2005 to 2011, 14 to 33 percent of HCPCS codes (as
                  many as 7 drugs per year) had ASPs that exceeded their Medicare payment
                  amounts. In other words, Medicare reimbursement may not have been
                  sufficient to cover the average cost of these drugs, possibly because
                  payment amounts had remained unchanged since 2003. For example, in
                  2005, the annual ASP of the drug ganciclovir sodium was $34.33 and
                  Medicare paid providers $35.25 (a spread of 3 percent). 26 The following
                  year, the annual ASP of the drug increased to $36.78 but the Medicare
                  payment amount stayed the same. By 2011, the ASP of ganciclovir
                  sodium had risen to $65.03, yet Medicare payment was still $35.25 (or
                  46 percent below ASP).
                  Table 1: Percentage of Drugs With Medicare Payment Amounts Greater
                  and Less Than ASPs

                                            2005         2006        2007       2008    2009   2010   2011
                                            n=29        n=24         n=26       n=26    n=23   n=23   n=21

                  Payment is
                  greater than              86%          79%          73%       73%     70%    74%    67%
                  ASP




                  Payment is less
                                            14%          21%          27%       27%     30%    26%    33%
                  than ASP



                Source: OIG analysis of CMS’s 2005–2011 payment amount files.


                  The DME infusion drug with the highest expenditures in each
                  of the last 6 years had Medicare payment amounts that were
                  10 to 18 times greater than ASPs
                  In every year under review except 2005, Medicare spent more on
                  milrinone lactate than on any other DME infusion drug. From 2005 to
                  2011, expenditures for milrinone lactate accounted for 24 to 62 percent of
                  total yearly spending in the DME infusion category, despite the fact that
                  only a small percentage of providers supplied the drug. For example, in


                  26
                       Ganciclovir sodium (brand name Cytovene) is an antiviral drug.

                                                                                                        8
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  2011, just 5 percent of infusion drug providers had paid Part B claims for
                  milrinone lactate. 27
                  In 5 of the 7 years, milrinone lactate also had the greatest difference
                  between Medicare payment amounts and ASPs among all DME infusion
                  drugs. For example, in 2006, the annual ASP was $2.80 for milrinone
                  lactate, while the AWP-based payment amount was more than 18 times
                  greater ($51.58). 28 In 2011, despite an increase in ASP (to $4.32 on
                  average), Medicare was still paying almost 12 times the ASP. 29

                  Medicare and its beneficiaries would have saved
                  $334 million between 2005 and 2011 if payments for
                  DME infusion drugs had been based on ASPs
                  If payment amounts for DME infusion drugs had been based on ASPs
                  rather than AWPs between 2005 and 2011, total Medicare Part B spending
                  would have been reduced by 44 percent (from $765 million to
                  $431 million), a savings of $334 million. One-fifth of the savings
                  ($67 million) would have been realized by beneficiaries in the form of
                  reduced coinsurance. Figure 2 shows the spending under the two
                  methodologies each year.
                  Potential savings based on the ASP methodology ranged from 28 percent
                  in 2005 to 57 percent in 2011. Reduced payments for milrinone lactate
                  would have accounted for more than three-quarters of the savings in each
                  year. For example, in 2011, Medicare payments to just 263 providers for
                  milrinone lactate would have been reduced by almost $71 million (or
                  nearly 99 percent of the total savings for all DME infusion drugs) had
                  reimbursement been set at 106 percent of ASP.
                  Payment amounts for most drugs would have decreased under the ASP
                  methodology. However, because the ASP-based payment amounts for
                  some drugs were higher than the existing AWP-based payment amounts
                  (i.e., providers were likely being underpaid), Medicare spending would
                  have actually increased for some drugs. For example, in 2011, Medicare
                  spending would have been reduced by $76 million for 14 drug codes but
                  would have increased by $4 million for 7 drug codes, resulting in a net
                  savings of $72 million.




                  27
                    Of the 4,995 providers that had paid Part B claims for DME infusion drugs in 2011,
                  only 263 had paid claims for milrinone lactate.
                  28
                       The next highest spread was for bleomycin sulfate, at almost nine times the ASP.
                  29
                       However, milrinone lactate no longer had the largest spread.

                                                                                                          9
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  Figure 2: Medicare Part B Spending for DME Infusion Drugs Under
                  AWP-Based and ASP-Based Methodologies From 2005–2011

                                                $140


                                                $120


                                                $100
                    Total Spending (Millions)



                                                $80


                                                $60


                                                $40


                                                $20


                                                 $0
                                                       2005    2006     2007     2008     2009     2010    2011
                                                                                 Year
                                                        Spending under the AWP-based payment methodology
                                                        Spending under the ASP-based payment methodology


                  Note: Medicare spending includes beneficiary copayments and deductibles.

                  Source: OIG analysis of CMS’s 2005–2011 payment amount files.




                                                                                                                  10
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  CONCLUSION AND RECOMMENDATIONS
                  Unlike most drugs covered under Medicare Part B, DME infusion drugs
                  are still being paid under a flawed AWP-based reimbursement
                  methodology. Our findings—like those of OIG’s previous studies in this
                  area—demonstrate that AWPs are unrelated to the prices of drugs in the
                  marketplace and that the reliance on an AWP-based payment methodology
                  has cost the program hundreds of millions of dollars.
                  Furthermore, although the current methodology has led to excessive
                  payments to providers for most DME infusion drugs, we also found that
                  providers may actually be paid below their costs for a number of DME
                  infusion drugs. These payment-related issues could significantly affect
                  drug utilization and acquisition. For example, excessive payments could
                  present incentives for providers to overutilize a particular product, while
                  payments that are below cost could contribute to an inability or
                  unwillingness to provide a particular drug.
                  To ensure that payment amounts for DME infusion drugs more accurately
                  reflect acquisition costs, we recommend that CMS either:
                  Seek a legislative change requiring DME infusion drugs to be
                  paid using the ASP methodology
                  ASPs, which are based on actual sales and reported quarterly, are much
                  more closely related to prices in the marketplace than AWPs set nearly a
                  decade ago. In 2011 alone, Medicare would have saved $72 million had it
                  reimbursed on the basis of the ASP methodology.
                  Include DME infusion drugs in the next round of competitive
                  bidding
                  The purpose of the DMEPOS competitive bidding program is to align
                  Medicare payments with acquisition costs and ensure that providers will
                  still be able to acquire items necessary to treat beneficiaries. CMS has
                  noted that it intends to include DME infusion drugs in future competitive
                  bidding efforts; however, no definitive plans for their inclusion have been
                  announced. Given the payment issues discussed in this report, DME
                  infusion drugs seem to be a prime candidate to be included sooner rather
                  than later.




                                                                                                11
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  AGENCY COMMENTS
                  In its comments on the draft report, CMS partially concurred with the
                  recommendation to seek a legislative change that would require DME
                  infusion drugs to be paid using the ASP payment methodology. The
                  agency noted that section 1842(o)(1)(D) of the Social Security Act would
                  need to be amended and the request for legislative change would need to
                  be included in the annual President’s Budget.
                  CMS concurred with the recommendation to include DME infusion drugs
                  in the next round of the DMEPOS competitive bidding program. CMS
                  stated that it plans to include infusion drugs in a future round of the
                  program.
                  CMS also provided several technical comments. In response, we made
                  minor revisions to the report, where appropriate. CMS’s comments are
                  provided in Appendix C.




                                                                                         12
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  APPENDIX A
                  Durable Medical Equipment Infusion Drug Descriptions
                    Healthcare
                    Common
                                                                                                 HCPCS Code
                    Procedure Coding                                               Description
                                                                                                     Dosage
                    System (HCPCS)
                    Code
                    J0285                 Amphotericin b injection                                    50 mg

                    J0287                 Amphotericin b lipid complex injection                      10 mg

                    J0288                 Amphotericin b cholesteryl sulfate complex injection        10 mg

                    J0289                 Amphotericin b liposome injection                           10 mg

                    J0475                 Baclofen injection                                          10 mg

                    J0476                 Baclofen intrathecal trial injection                       50 mcg

                    J0735                 Clonidine hydrochloride injection                            1 mg

                    J0895                 Deferoxamine mesylate injection                            500 mg

                    J1170                 Hydromorphone injection                                      4 mg

                    J1230                 Methadone injection                                         10 mg

                    J1250                 Dobutamine hydrochloride injection                         250 mg

                    J1325                 Epoprostenol injection                                       .5 mg

                    J1455                 Foscarnet sodium injection                                1000 mg

                    J1570                 Ganciclovir sodium injection                               500 mg

                    J1817                 Insulin for insulin pump use                               50 units

                    J2175                 Meperidine hydrochloride injection                         100 mg

                    J2260                 Milrinone lactate injection                                  5 mg

                    J2270                 Morphine sulfate injection                                  10 mg

                    J2271                 Morphine sulfate injection                                 100 mg

                    J2275                 Morphine sulfate injection                                  10 mg

                    J3010                 Fentanyl citrate injection                                   .1 mg

                    J9001                 Doxorubicin hydrochloride liposome injection                10 mg

                    J9040                 Bleomycin sulfate injection                                15 units

                    J9065                 Cladribine injection                                         1 mg

                    J9100                 Cytarabine hydrochloride injection                         100 mg

                    J9110                 Cytarabine hydrochloride injection                         500 mg

                    J9190                 Fluorouracil injection                                     500 mg

                    J9200                 Floxuridine injection                                      500 mg

                    J9208                 Ifosfamide injection                                         1 gm

                    J9280                 Mitomycin injection                                          5 mg


                                                                                                                13
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                                                                                                                 HCPCS Code
                    HCPCS Code                 Description
                                                                                                                     Dosage
                    J9355                      Trastuzumab injection                                                      10 mg

                    J9360                      Vinblastine sulfate injection                                               1 mg

                    J9370                      Vincristine sulfate injection                                               1 mg

                    J9375                      Vincristine sulfate injection                                               2 mg

                    J9380                      Vincristine sulfate injection                                               5 mg

                    Q4075*                     Acyclovir injection                                                         5 mg

                    Q4076*                     Dopamine hydrochloride injection                                           40 mg

                    Q4077*                     Treprostinil injection                                                      1 mg

                  Note: The Centers for Medicare & Medicaid Services (CMS) did not classify all of the listed drugs as durable
                  medical equipment infusion drugs in every quarter between 2005 and 2011.

                  *HCPCS codes Q4075, Q4076, and Q4077 were deleted as of December 31, 2005. They were replaced with
                  HCPCS codes J0133, J1265, and J3285, respectively, as of January 1, 2006, and were no longer subject to the
                  DME infusion payment limit during the subsequent quarters under review.

                   Source: CMS’s 2005–2011 payment amount files.




                                                                                                                                  14
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  APPENDIX B
                  Annual Savings Under the Average Sales Price Methodology
                                                           Spending Under                                      Percentage
                                  Total Spending for                                Savings Under
                                                              Average Sales                                Savings Under
                                     Durable Medical                                    ASP-Based
                    Year                                                 Price                                 ASP-Based
                                   Equipment (DME)                                         Payment
                                                                (ASP)-Based                                       Payment
                                      Infusion Drugs                                  Methodology
                                                               Methodology                                   Methodology


                    2005                $129,917,517             $93,627,954           $36,289,563                     28%



                    2006                  $86,313,154            $51,464,796           $34,848,358                     40%



                    2007                  $89,365,108            $54,438,177           $34,926,931                     39%



                    2008                $100,700,741             $58,574,188           $42,126,553                     42%



                    2009                $108,419,875             $62,306,379           $46,113,495                     43%



                    2010                $124,990,747             $56,573,383           $68,417,364                     55%



                    2011                $125,459,122             $53,732,067           $71,727,055                     57%



                      Total             $765,166,263           $430,716,945           $334,449,318                     44%


                   Source: Office of Inspector General (OIG) analysis of the Centers for Medicare & Medicaid Services’ 2005–2011
                   payment amount files and OIG analysis of 2005-2011 National Claims History DME files.




                                                                                                                                   15
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                                       APPENDIXC
                                       Agency Comments




  l4  _.._tlsP'<'ICt;, ,

    "...-                  "" ~

                                     DEPARTMENT OF HEALTII & HUMAN SERVICES                                Centers for Medicare & Mecf.ca;d Services


                                                                                                           Office of the Administrator
                                                                                                           Washington. DC 20201




                             DATE: 	           DEC 1 7 lOll
                             TO: 	             Daniel R. Levinson 

                                               Inspector General 

                                                                      /S/
                             FROM: 	           Marilyn Tavenner 

                                               Acting Administrator 


                             SUBJECT: 	 Office of Inspector General ' s Draft Report: "Part B Payments for Drugs Infused
                                        through Durable Medical Equipment" (OEI-12-12-00310)


                              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                              respond to the OIG Draft Report titled, "Part B Payments for Drugs Infused Through Durable
                              Medical Equipment " (OEI-12-12-0031 0) .

                              The OIG's objectives were to compare Medicare payment amounts based on average wholesale
                              prices (A WP) to average sales prices (ASP) for Part B durable medical equipment (DME)
                              infusion drugs between 2005 and 2011 ; and determine how much Medicare would have saved on
                              DME infusion drugs between 2005 and 2011 had payment been based on the ASP methodology.

                              The OIG found that during each year between 2005 and 2011 the payment amounts for 67 to 86
                              percent of health care common procedures codes (HCPCS) identified by OIG as DME infusion
                              drugs exceeded ASP by a substantial margin. The report also noted that as many as one third of
                              the payment amounts were significantly less than ASP. Overall, the potential savings associated
                              with using ASP-based payments instead of A WP-based payments ranged from 28 percent in
                              2005 to 57 percent in 2011. The savings estimate totaled $334 million for the period 2005 to
                              2011 . One drug, milrinone-anagent infused for the treatment of congestive heart failure,
                              accounted for about three quarters of the potential savings for each year.

                                  OIG Recommendation

                                  CMS should revise payments for DME infusion drugs to reflect acquisition costs by either
                                  seeking a legislative change to pay infusion drugs under the same payment methodology as other
                                  Part B drugs (i.e, 106 percent of ASP) or including infusion drugs in the next round of the DME
                                  competitive bidding program.




                                                                                                                                                       16
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                                                                                        17
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of David Tawes, Regional
                  Inspector General for Evaluation and Inspections in the Baltimore regional
                  office.
                  Bahar Adili served as the lead analyst for this study. Central office staff
                  who provided support include Berivan Demir Neubert, Kevin Farber,
                  Scott Manley, and Christine Moritz.




                                                                                                18
Part B Payments for Drugs Infused Through Durable Medical Equipment (OEI-12-12-00310)
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
